                            SOCIAL SECURITY
                            Office of the Inspector General

                                   February 25, 2011


The Honorable Sam Johnson
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

On April 5, 2010, we received a request from the House Committee on Ways and
Means, Subcommittee on Social Security, to issue an interim report on the first in/first
out process in place at the Office of Disability Adjudication and Review (ODAR), and
conduct a preliminary examination of the extent to which ODAR is complying with this
policy. We issued a preliminary report in April 2010.

The letter also asked my office to conduct a more extensive review that examined local,
regional, and national trends regarding first in/first out scheduling procedures. This
report represents our response to this second request.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency.

If you have additional questions, please call me, or have your staff contact Misha Kelly,
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                         Sincerely,




                                         Patrick P. O’Carroll, Jr.
                                         Inspector General

Enclosure

cc:
Michael J. Astrue


             SOCIAL SECURITY ADMINISTRATION        BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

Office of Disability Adjudication and
Review’s Scheduling Procedures for
              Hearings

            A-12-10-20169




             February 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                           Background
OBJECTIVE
The objectives of our review were to (1) identify trends at the hearing office, regional,
and national levels that were inconsistent with a first in/first out (FIFO) hearing
scheduling policy; and (2) determine whether the departure from FIFO at these
locations is consistent with the Office of Disability Adjudication and Review’s (ODAR)
policies and procedures.

BACKGROUND
ODAR administers the hearings and appeals program for the Social Security
Administration (SSA). ODAR operates over 150 hearing offices and related remote
sites, as well as 5 National Hearing Centers (NHC). 1 About 1,400 administrative law
judges (ALJ) conduct hearings and issue decisions.

The hearing process begins when an applicant files a hearing request 2 before an ALJ,
after being denied at a State disability determination services office. Upon receiving this
request, hearing office staff enter the case into the Case Processing and Management
System (CPMS). The master docket system contains key information on all cases the
hearing office receives. The case is then assigned to an ALJ for processing and an
eventual hearing, if appropriate. Not every request for hearing leads to a hearing. For
example, cases are screened at the master docket stage, and an ALJ or senior attorney
adjudicator 3 may make an on-the-record (OTR) allowance without a hearing. In
addition, some cases are dismissed without a hearing.

ODAR’s Hearings, Appeals and Litigation Law (HALLEX) Manual states, “The HOCALJ
[Hearing Office Chief ALJ] generally assigns cases to ALJs from the master docket on a
rotational basis, with the earliest (i.e., oldest) [requests for hearings] receiving priority,
unless there is a special situation which requires a change in the order in which a case
is assigned.” 4


1
 NHCs conduct only video hearings with other hearing offices around the nation. SSA’s five NHCs are in
Albuquerque, New Mexico; Baltimore, Maryland; Chicago, Illinois; Falls Church, Virginia; and St. Louis,
Missouri.
2
    Request for Hearing by Administrative Law Judge (SSA Form HA-501).
3
  ODAR’s Senior Attorney Adjudicator initiative was implemented in November 2007. The initiative was
designed to increase adjudicator capacity by allowing non-ALJs to issue fully favorable OTR decisions,
thereby expediting the hearing process and conserving ALJ resources for more complex cases that
require a hearing. We plan to issue a report on the Senior Attorney Adjudicator initiative in early 2011.
4
 SSA, HALLEX I-2-1-55 Section A—Assignment of Service Area Cases to Administrative Law Judges.
Exceptions to FIFO are provided in Appendix B.


ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                                   1
PRIOR REVIEW

On April 5, 2010, we received a request from the House Committee on Ways and
Means, Subcommittee on Social Security, to review FIFO scheduling procedures. The
Subcommittee provided various anecdotal reports of hearing scheduling that may be
contrary to the FIFO policy. We issued a preliminary report in April 2010 based on a
review of workloads at three hearing offices and discussions with senior management in
three regions.5

SCOPE AND METHODOLOGY
In this review, we more thoroughly examined hearing office, regional, and national
trends that might have an effect on FIFO. We reviewed the status of hearing cases with
a request date of October 13, 2009, at hearing offices and related sites.6 For those
cases where hearings did not appear to be scheduled on a FIFO basis, we reviewed a
sample to determine whether there was a valid rationale for scheduling the hearing out
of order. In addition, we conducted interviews with managers at ODAR hearing offices
and regional offices to learn more about the hearings process. 7




5
 SSA, Office of the Inspector General (OIG), Congressional Response Report: Scheduled Hearings
(A-12-10-20154), April 2010.
6
  This included 145 hearing offices, 6 screening units, 4 NHCs, and 1 satellite office. While ODAR
operated additional hearing offices and related sites at the time of our review, we only included locations
that were operating during our audit period.
7
    See Appendix C for more information on our scope and methodology.


ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                                     2
                                                              Results of Review
Our review of a nationwide sample of hearing cases found that ODAR was not always
processing the cases in FIFO order, but this departure from FIFO was consistent with
the Agency’s policies and procedures. We reviewed 2,979 hearing cases with a hearing
request date of October 13, 2009 and found 1,208 were closed by the end of Fiscal
Year (FY) 2010. Of these closed cases, 613 cases (about 51 percent) were processed
using approved exceptions to FIFO, including OTRs, critical cases, remands, and
dismissals. ODAR’s 10 regional management teams told us that hearing offices
followed the FIFO process as much as possible. The managers stated that other issues
may affect a hearing office’s ability to follow the FIFO process in every case, including
hearings held at remote hearing sites, scheduling of multiple parties, and misplaced and
delayed cases at field offices. ODAR had been working to standardize and automate
core operational activities in ways that should improve hearing case processing, such
as the planned auto-scheduling initiative.

CASE PROCESSING WITH FIFO EXCEPTIONS

Our review of 2,979 hearing requests from October 13, 2009 8 found that 1,208 cases
(41 percent) were closed by the end of FY 2010. Of these 1,208 closed cases,
613 cases (51 percent) were processed using the exceptions to FIFO order because
they met the Agency’s criteria. HALLEX 9 allows a number of exceptions to FIFO
processing, including

•     OTR decisions;
•     critical cases; 10
•     Appeals Council (AC) and court remand cases; 11 and
•     dismissals. 12

Figure 1 illustrates the various FIFO exceptions associated with the 613 closed cases
that had a hearing request date of October 13, 2009. As shown, ALJ and senior

8
 The hearing request date relates to the date the Request for Hearing by Administrative Law Judge (SSA
Form HA-501) was filed. We used the hearing request date in CPMS, ODAR’s system for controlling and
processing hearing cases.
9
  SSA, HALLEX I-2-1-55 Section D—Assignment of Service Area Cases to Administrative Law Judges.
In addition, see Appendix B for a further explanation of the exceptions to processing cases using FIFO
order.
10
     Examples of critical cases are provided in Appendix B.
11
  For more information on remands, see our September 2008 report, Hearing Office Remand Processing
(A-12-08-28036).
12
  For more information on dismissals, see our December 2010 report, Office of Disability Adjudication
and Review Hearing Request Dismissals (A-07-10-20171).


ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                                3
attorney adjudicator OTR decisions comprised over half of the closed cases, while
dismissals were 20 percent and critical cases were 17 percent. The remaining
8 percent was remanded cases.

           Figure 1: Types of FIFO Exceptions Among 613 Closed Cases
                            (as of the end of FY 2010)
                                        8%
                                                                    28%
                         17%




                       20%
                                                                          27%

               Senior Attorney Adjudicator OTRs (28%)   ALJ OTRs (27%)
               Dismissals (20%)                         Critical Cases (17%)
               Remands (8%)

                    Note: Some cases were counted in more than one category.

OTR Decisions

A total of 2,979 cases had a hearing request date of October 13, 2009. Of these,
362 cases (12 percent) received OTR decisions. Senior attorney adjudicators issued
187 of these OTR decisions, and ALJs issued 175 OTR decisions.

All 10 regions used ALJs and senior attorney adjudicators to screen incoming cases
and adjudicate them as OTR cases. Based on screening criteria developed by ODAR,
cases that meet a certain profile 13 get screened by senior attorney adjudicators for
possible OTR decisions. If the ALJ or senior attorney adjudicator decides the case can
be issued as a fully favorable OTR decision, it is written as a favorable decision and
issued. Under this process, two cases received on the same day can be treated
differently if the first is quickly allowed under the OTR process while the second requires
a full hearing before a decision can be made.

According to the regional staff we interviewed, cases that were not allowed under the
OTR process were returned to the queue to be processed in FIFO order. However, we
identified differences in later processing indicating this OTR screening affected how a

13
  In August 2009, ODAR issued guidance recommending pre-screening for possible OTR decisions for
the following types of cases: (1) claimants aged 50 and older, (2) OTR requests from claimant
representatives, and (3) specifically targeted impairment codes.


ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                          4
case is treated later in the process. For example, we reviewed 20 cases that the
Greensboro, North Carolina, Hearing Office received on October 13, 2009. As of
May 7, 2010, the Greensboro Hearing Office had 10 of its cases in the Unworked
status, 9 were In-Process, and 1 had a hearing and was being finalized. 14 Of the nine
cases that were In-Process, six were screened by senior attorney adjudicators. After
the senior attorney adjudicator screened the cases, they were returned to the Unworked
status but quickly moved to Pre-Hearing development status.15 The cases that were not
screened by a senior attorney adjudicator were left in Unworked status.

Critical Cases

Hearing offices categorized 111 cases, about 4 percent of the total cases received on
October 13, 2009, as critical. In our review, we identified another seven critical cases
that were not closed by the end of FY 2010, and all but three were closed as of
December 15, 2010. 16 We found that the hearing offices that received critical cases
followed the HALLEX guidelines of prioritizing the processing of critical cases. 17
HALLEX guidelines identify the following critical situations to expedite the case. 18

• The claimant’s illness is terminal. 19
• The case relates to military personnel injured on active duty.
• The case is identified as a compassionate allowance 20 claim.
• The claimant may be suicidal or homicidal/potentially violent.
• The claimant is without, and is unable to obtain, food, medicine, or shelter—often
  termed dire need.
• The case has been delayed an inordinate amount of time, and there is a public,
   congressional, or other high priority inquiry on the claim.
14
     See Appendix D for a hearing office case processing flow diagram.
15
  Senior attorney adjudicators may update medical evidence and take other actions to develop the case
as part of the screening process.
16
  Of these seven cases, four were initially received as critical cases, and three were coded as critical
cases later in the process. Of the three open cases, two were critical from the start, and one was later
coded as critical in December 2009. We identified all cases coded as critical through May 2010. Since
cases can be coded as critical at any point before being closed, the number of critical cases associated
with our population may increase over time.
17
     SSA, HALLEX I-2-1-40—Critical Cases.
18
     See Appendix B for a full listing of exceptions to the FIFO policy for hearings.
19
  A terminal illness is described as an untreatable impairment that cannot be reversed and is expected to
end in death. SSA POMS DI 11005.601—The Disability Interview—Identifying Terminal Illness (TERI)
Cases.
20
  Compassionate Allowances are granted for diseases of the most obviously disabled individuals based
on readily available, objective medical information. SSA News Release, Social Security Adds 38 New
Compassionate Allowance Conditions, February 11, 2010.


ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                                  5
As shown in Figure 2, the largest critical case categories were dire need (43 percent)
and suicidal/homicidal (34 percent). Five percent of the cases were categorized as
Military Service Casualty cases.

              Figure 2: Types of Critical Cases Among 115 Issued Decisions
                                (as of December 15, 2010)
                                                   5%
                                         6%

                               12%
                                                                            43%




                                34%

                  Dire Need - 43%                              Suicidal/Homicidal - 34%
                  Terminal Illness - 12%                       Compasionate Allowance - 6%
                  Military Service Casualty - 5%

     Note: These 115 critical cases relate to the 111 closed by the end of FY 2010, as well as 4 additional
     cases from our population we identified as critical. Some cases were counted in more than one
     category.

While hearing offices categorize cases as critical, the claimants’ medical and work
histories also need to be reviewed by hearing office employees. ODAR has provided
special instructions to guide hearing office employees in establishing a priority plan and
procedures for processing critical cases. For instance, hearing office employees use a
Critical Request Evaluation Sheet to evaluate the critical situation to expedite the
case. 21

One example of a critical case relates to a male claimant in the Buffalo, New York, area
whose claim was flagged as a compassionate allowance because he was diagnosed
with a malignant tumor. A senior attorney adjudicator in the Buffalo Hearing Office
screened the case, and, within 100 days, the case was decided as a fully favorable
OTR decision. In another example, a female claimant with human immunodeficiency




21
     SSA, HALLEX I-2-1-40—Critical Cases; Also see HALLEX I-2-1-95—Critical Request Evaluation Sheet.


ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                                 6
virus filed a claim in the Houston, Texas, Hearing Office. Her case was designated as
suicidal, and, within 2 months, the Houston Hearing Office had issued a decision on her
case.

Remand Cases

Hearing offices received 61 SSA AC remands with a hearing request date of
October 13, 2009. Of those, 55 remands (90 percent) were closed by the end of
FY 2010. ODAR’s HALLEX manual instructs hearing offices to flag remands and assign
them immediately. 22 Remands are generated by SSA’s AC and generally relate to
appeals filed by claimants dissatisfied with the ALJ decision on their claims. The AC,
which grants a request for review or reviews a case on its own, may issue a decision,
dismiss the request for hearing, or remand the case to an ALJ for further development
and proceedings. 23 Since remands represent the reworking of an initial hearing, 24 the
remanded case usually goes back to the ALJ who issued the initial decision. The ALJ
will address the AC and/or court’s comments, hold a new hearing, and/or issue a new
decision.

Dismissals

Of the 2,979 cases with a request date of October 13, 2009, ALJs had dismissed
134 cases (4 percent) by the end of FY 2010. 25 ALJs can dismiss a case for a variety of
reasons. The most common reasons follow.

•    Abandonment: When the claimant does not appear for the hearing, and the ALJ did
     not find a good cause for failure to appear.
•    Withdrawal: When the claimant withdraws a hearing request.




22
  SSA, HALLEX I-2-1-55 Section D—Assignment of Service Area Cases to Administrative Law Judge. In
addition, see our September 2008 report, Hearing Office Remand Processing (A-12-08-28036).
23
   The initial remand is an AC remand. If the claimant is dissatisfied with the AC action, the claimant may
seek a review of the case by a Federal district court. When the court remands a case to the
Commissioner of Social Security, the remand is sent to the AC. The AC subsequently remands the case
to an ALJ as a “court remand.” SSA, HALLEX I-2-8-18—Administrative Law Judge Decision in Court
Remand Cases.
24
  Remands often relate to the ALJ applying the wrong law, the need for additional claimant or other
witness testimony, and/or an issue not being properly developed. Other reasons cases are remanded
include (1) the claimant did not receive a fair hearing, (2) the ALJ issued a decision on the record but
testimony is needed, (3) evidence from an expert is needed, or (4) the ALJ’s decisional rationale is
insufficient. SSA, HALLEX I-3-7-1—General.
25
  Dismissals can happen at various stages in the hearings process, so this number may increase as the
remaining cases in our population are processed.


ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                                  7
• Favorable: When a lower level SSA component issues a revised favorable decision,
     rendering the need for a hearing moot. 26

HEARING OFFICE PROCESSING ISSUES AFFECTING FIFO

ODAR’s 10 regional management teams told us that hearing offices follow the FIFO
process as much as possible. However, they mentioned other issues that affect the
FIFO process, including hearings held at remote hearing sites, scheduling of the
necessary parties, and misplaced and delayed cases at SSA field offices. 27

Remote Hearing Site Dockets

Regional managers stated hearing offices may need to bypass the FIFO process to fill
an ALJ’s remote hearing site docket. 28 Hearing offices attempt to gather enough cases
to fill an ALJ’s docket for in-person hearings at remote sites, which may lead to cases
being heard out of order. For instance, newer cases may move ahead of older cases to
fill a remote hearing site docket. SSA attempts to use video hearings with claimants at
remote hearing sites, but ALJs will travel to remote hearing sites for an in-person
hearing if video teleconferencing is not available or if the claimant refuses a video
hearing. 29

To determine the variety of cases heard at remote sites, we examined the cases heard
at the Missoula, Montana, remote hearing site on April 6, 2010. The cases scheduled
that day had hearing request dates ranging from October 6 to November 13, 2009.
While the range between hearing request dates was 5 weeks, the hearings were heard
on the same day because the hearing office needed to gather enough cases to make it
cost-effective to send the ALJ to the remote site.

We also learned of another example of remote site issues in our conversations with the
Denver Region. The Denver, Colorado, Hearing Office operates a number of remote
sites that do not contain video hearing equipment. As a result, the ALJs in that office



26
  For more information on dismissals, see our December 2010 report, Office of Disability Adjudication
and Review Hearing Request Dismissals (A-07-10-20171).
27
   We referenced most of these same issues in our initial report in April 2010. Our additional work
expanded our contacts from 3 regions to all 10 regions and allowed us to review data and instances
nationwide related to these issues. Our earlier report mentioned transferred cases and prisoner cases as
other potential factors impacting FIFO processing. While we did not come across any additional
information that caused us concern as part of this review, we continue to believe these two factors can
impact case processing.

28
  To be cost-effective, the hearing office must assemble a docket of cases when sending an ALJ to a
remote site.
29
 We are completing a separate report on video hearings, Use of Video Hearings to Reduce the Hearing
Case Backlog (A-05-08-18070).


ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                               8
spend as much as 50 percent of their time visiting remote sites for hearings. In addition,
not all these sites are accessible in the winter months. For example, a hearing office
manager noted that one site cannot be accessed from November through April because
of inclement weather.

Scheduling Multiple Parties

Regional managers stated that cases ready for a hearing may be delayed because of
difficulties in scheduling all appropriate individuals for the hearing. For example,
hearing offices need to ensure the availability of the ALJ, the claimant and the
claimant’s representative, the hearing reporter, and, if needed, a translator, medical
expert (ME), and/or vocational expert. Any individual may cancel his or her attendance
at the hearing, thereby creating a need to reschedule. ALJs’ schedules are usually
planned 3 months in advance, so when an individual cancels, the hearing must be
rescheduled. Rescheduling can add months to the hearing process. 30

All the regional managers stated that scheduling MEs was especially difficult. We
examined the FY 2010 closed cases and found that about 100,000 hearings, or about
1 of every 7 dispositions, had an ME in attendance. In one region, we were told that
three hearing offices in the same part of the State experienced scheduling conflicts
when they attempted to schedule the same MEs for hearings on the same day. We
also heard from hearing offices that MEs will request a delay in the hearing until they
can be assigned more than one case, since it is not cost-effective for them to attend a
single hearing. In these cases, hearing offices bypass FIFO and identify additional
cases that require a particular ME’s expertise.

Misplaced and Delayed Cases

Our review of the 2,979 cases revealed 149 cases (5 percent) were received in the
hearing offices between 50 and 275 days after the hearing request was received from
the claimant. 31 All the regions mentioned that claim folders arriving late in the hearing
offices cause problems in FIFO processing, 32 though hearing offices make every effort
to get these cases into the hearing process and processed in FIFO order.

ODAR’s regional managers told us they have been working closely with SSA’s Office of
Operations 33 on a solution to this problem. Most of the regional managers told us that

30
  Not only are the ALJ dockets filled months in advance, hearing offices must also comply with the
required 20-day notice sent to the claimant and claimant representative.
31
 We also discussed misplaced and delayed cases in our September 2009 report, Aged Claims at the
Hearing Level (A-12-08-18071).
32
  The Social Security field office is responsible for sending a claimant’s appealed case to the ODAR
hearing office that services the claimant’s location.
33
     SSA’s Office of Operations is responsible for managing field office operations.



ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                              9
the problem of misplaced and delayed folders has diminished since SSA implemented
the Electronic Folder initiative. Their reasoning was that paper cases were easier to
misplace, and cases also were lost when they were mailed to the hearing office. The
regional managers believe that electronic cases are easier for field offices to track since
they are transmitted to the hearing offices electronically rather than traveling through the
mail system. However, we found that the majority of the delayed cases in our
population was electronic cases. We examined 47 cases that were at least 100 days
past the hearing request date before being received in the hearing offices. We found
that 27 of these cases were electronic cases.

ONGOING INTIATIVES

As part of our earlier review, we examined ODAR’s initiatives to improve operating
efficiency and eliminate the hearings backlog. Since 2007, ODAR has been working to
standardize and automate core operational activities through its electronic business
process (eBP) initiative. 34 The eBP initiative involves all hearing office practices;
including the hearing case intake process, pre-hearing development, the hearing itself,
post-hearing development, and decision issuance. ODAR instituted eBP after
conducting visits to hearing offices to identify processing best practices, developing a
new standardized electronic business process, and testing of the new approach at
various locations. Beginning in June 2009, the official process was rolled out to hearing
offices, with the last set of training scheduled for the NHCs from November 2010 to
February 2011.

Regional managers had mixed reactions on the implementation of eBP and the effect
on the hearing process. Some regional managers were positive about the new process,
stating eBP had standardized the case processing function in every hearing office,
thereby facilitating case transfers. However, managers in three regions stated that eBP
had no noticeable effect to date on hearing office productivity.

ODAR also has related automation initiatives that may alleviate some scheduling and
other processing delays by streamlining activities and potentially freeing up staff for
other duties, including the following.

     •   Automated Scheduling: ODAR is working with a contractor to automate hearing
         scheduling, which is currently a manual process. The new process is expected to
         electronically determine the best available hearing time based on the availability
         of ALJs, experts, facilities, and equipment.

     •   Centralized Printing and Mailing: Contactors are producing and mailing key
         hearing-related notices, including Request for Hearing Acknowledgement letters,
         Notice of Hearing letters, Notice of Hearing Reminder letters, and Notice of
         Decision letters.



34
     Standardized Electronic Hearing Office Process, ODAR Website, updated November 22, 2010.


ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                       10
     •   Appointed Representative Service: Under this service, claimant
         representatives obtain electronic access to the hearing case folder and receive
         electronic notices. ODAR reported that approximately 1,400 claimant
         representatives had access to this system in November 2010.

     •   Streamlined Folder Assembly/Shared Access: In April 2010, ODAR issued
         new electronic folder assembly instructions to hearing offices to ensure that key
         functions, including page numbering, splitting of commingled documents, and
         adding appropriate document descriptions are performed. A separate initiative
         that allows the sharing of electronic folders between hearing offices, in
         combination with this streamlined approach for such folders, should enhance the
         ability of offices to assist one another with backlogs.

The above-listed initiatives related to case processing are just a few of the many
ongoing hearing-related initiatives at SSA. Other ongoing Agency initiatives, such as
Aged Cases, 35 ALJ Hiring, 36 Co-Location of remote sites with SSA field offices, Video
Hearings (including NHCs), 37 Service Area Realignments, 38 and the Senior Attorney
Adjudicator 39 program, are expected to further assist the Agency in processing the
backlog of pending hearings, in a more timely way, while continuing to adhere to the
FIFO policy.




35
     SSA, OIG, Aged Claims at the Hearing Level (A-12-08-18071), September 2009.
36
     SSA, OIG, Hearing Office Performance and Staffing (A-12-08-28088), February 2010.
37
 We will be issuing a report on video hearings in FY 2011—Use of Video Hearings to Reduce the
Hearing Case Backlog (A-05-08-18070).
38
  This initiative involves the transfer of cases and, in some instances, specific hearing office service
areas to other offices for the purpose of alleviating backlogs. SSA, OIG, Congressional Response
Report: Hearing Office Backlogs in Missouri (A-12-10-21039), March 2010.
39
  We will be issuing a report on the senior attorney program in 2011—Senior Attorney Adjudicator
Program (A-12-10-11018).


ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                                  11
                                                              Conclusions
Our review found that the majority of the cases in our population that were closed by the
end of FY 2010 were not processed in FIFO order. However, this processing was
consistent with SSA’s policy since these cases were processed as appropriate
exceptions to the FIFO policy, including OTRs, critical cases, remands, and dismissals.
These exceptions allow hearing offices to focus on priority cases earlier as well as those
that can be quickly decided.

The ODAR managers we spoke with were committed to FIFO, and most non-FIFO
issues were consistent with ODAR policy, though misplaced and delayed cases
continue to be a problem even in the new electronic environment. Moreover, because
of the complexities of scheduling, the Agency is often required to reschedule hearings.
Ongoing Agency initiatives to improve the electronic business process, including the
planned auto-scheduling process, should help alleviate some of these issues and allow
more cases to be processed in FIFO order.




ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                              12
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Exceptions to the First in/First out Policy for Hearings
APPENDIX C – Scope and Methodology
APPENDIX D – Hearing Office Process Flow Diagram
APPENDIX E – Hearing Case Processing




ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)
                                                                 Appendix A

Acronyms
   AC             Appeals Council

   ALJ            Administrative Law Judge

   CPMS           Case Processing and Management System

   eBP            Electronic Business Process

   FIFO           First in/First out

   FY             Fiscal Year

   HALLEX         Hearings, Appeals and Litigation Law Manual

   ME             Medical Expert

   NHC            National Hearing Center

   ODAR           Office of Disability Adjudication and Review

   OIG            Office of the Inspector General

   OTR            On-the-Record

   POMS           Program Operations Manual System

   SSA            Social Security Administration




ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)
                                                                              Appendix B

Exceptions to the First In/First Out Policy for
Hearings
The Social Security Administration’s (SSA) Hearings, Appeals and Litigation Law
(HALLEX) Manual provides a number of situations where the first in/first out method for
processing hearing cases can be bypassed (see Table B-1). 1

            Table B-1: Exceptions to FIFO When Processing Hearing Claims
                   Exception                                         Explanation
    Critical Case Designation                       Involves a critical issue, including Terminal
                                                    Illness, Military Service Casualty,
                                                    Compassionate Allowance, Dire Need,
                                                    and Suicidal/Homicidal situations.
    Time-Limited Court Remand Claims                The court has ordered the Commissioner
                                                    to complete a specific action(s) within a set
                                                    period of time.
    Section 8001 Claims                             The Appeals Council (AC) has assumed
                                                    jurisdiction on its own motion of an
                                                    administrative law judge’s (ALJ) favorable
                                                    disability decision and remanded the case
                                                    for further proceedings. If certain
                                                    timeframes are not (or have not been) met,
                                                    SSA must pay the claimant interim
                                                    benefits until the proceedings on remand
                                                    have been completed.
    Delayed Court Remand Claims                     This is a court remand case that is over
                                                    125 days old (from the date of the court's
                                                    order) or the AC has remanded to an ALJ
                                                    a second time.
    Other Court Remand Claims                       All other court remand cases not already
                                                    cited above.
    Title XVI Non-Disability Claims                 The hearing decision must be issued
                                                    within 90 days from the date of the request
                                                    for hearing.
    Disability Cessation Claims                     The case is handled promptly to avoid or
                                                    minimize overpayments.




1
    SSA, HALLEX I-2-1-55—Assignment of Service Area Cases to Administrative Law Judges.


ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                   B-1
               Exception                                     Explanation
 Cases That Appear to Meet the Criteria       Based on hearing office staff review of the
 for Dismissal                                Request for Hearing, the case appears to
                                              meet the Office of Disability Adjudication
                                              and Review’s criteria for dismissal.
 Cases in Which the Claimant has              The ALJ may determine, based on his or
 Waived the Right to an Oral Hearing          her examination of the record, that a
                                              hearing should be held despite the waiver.
 Cases in Which a Claimant has Waived A claimant's waiver of the right to regular
 His or Her Right to Regular Advance  advance notice indicates that he or she
 Notice of Hearing                    does not need advance notice to prepare
                                      for the hearing and desires a hearing as
                                      soon as possible. Therefore, if the hearing
                                      office staff can accommodate the claimant
                                      because of a cancellation by another
                                      claimant or any other reason, it should
                                      assign the case to an ALJ and schedule a
                                      hearing as soon as possible, without the
                                      usual advance notice.
 On-the-Record Decisions              Not every request for hearing leads to a
                                      hearing. For example, most cases are
                                      screened at the master docket stage and
                                      an ALJ or senior attorney adjudicator may
                                      make an on-the-record allowance without
                                      a hearing.
 Appeals Council Remand               AC remands, including those generated by
                                      the courts, are assigned to the same ALJ
                                      who issued the decision or dismissal
                                      unless
                                          a. the case was previously assigned to
                                              that ALJ on a prior remand from the
                                              AC and the ALJ's decision or
                                              dismissal after remand is the
                                              subject of the new AC remand, or
                                          b. the AC or the court directs that the
                                              case be assigned to a different ALJ.




ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                            B-2
                                                                         Appendix C

Scope and Methodology
To achieve our objectives, we:

•   Reviewed applicable laws and Social Security Administration (SSA) policies and
    procedures, including the Office of Disability Adjudication and Review’s (ODAR)
    Hearings, Appeals and Litigation Law Manual.

•   Reviewed prior SSA Office of the Inspector General reports.

•   Using a workload report from ODAR’s Disability Adjudication Reporting Tool,
    identified cases in hearing offices and other locations that had a request for hearing
    date of October 13, 2009.

•   Analyzed the selected hearing cases using information in ODAR’s Case Processing
    and Management System to determine the status of each case as well as other
    issues pertaining to each case. From this information, we identified hearing office,
    regional, and national trends.

•   Interviewed managers in ODAR Headquarters, regional offices, and hearing offices
    to discuss first in/first out, the scheduling process, and the status of selected hearing
    cases.

We assessed the reliability of the workload data cited in this review and found it
sufficiently reliable to meet our objectives. We conducted our review from May to
December 2010 in Falls Church, Virginia. The principle entity audited was the Office of
the Associate Commissioner for Disability Adjudication and Review. We conducted our
review in accordance with the Council of the Inspectors General on Integrity and
Efficiency’s Quality Standards for Inspections.




ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)
                                                            Appendix D

Hearing Office Process Flow Diagram




ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)
                                                                                         Appendix E

Hearing Case Processing
Consistent with our earlier review of 3 offices, 1 we reviewed the 2,979 cases at
156 offices to identify national and regional trends related to their processing as of
May 7, 2010. These trends indicate that two individuals filing a request for hearing on
the same day may experience different hearing dates depending on the location of the
hearing offices.2

NATIONAL TRENDS

At a national level, we found that hearing request cases received on the same day were
in varying statuses throughout the hearings process, though most were still Not
Scheduled for a hearing. We reviewed the status of 2,979 cases 3 at 156 offices with a
hearing request date of October 13, 2009. 4 We found 1,974 cases (66 percent) were
waiting to be scheduled for a hearing as of May 7, 2010—approximately 7 months after
they were received at a hearing office (see Figure E-1). 5 Another 358 cases
(12 percent) had been scheduled for a hearing, 150 cases (5 percent) had undergone a
hearing, and 497 cases (17 percent) had an issued decision.




1
 Social Security Administration, Office of the Inspector General, Congressional Response Report:
Scheduled Hearings (A-12-10-20154), April 2010.
2
    This difference would also relate to the type of claim, as already noted in the body of this report.
3
 These cases include the 55 cases reviewed in our earlier report, which included cases from three
hearing offices - McAlester, Oklahoma; Orland Park, Illinois; and Sacramento, California.
4
 The hearing request date relates to the date the Request for Hearing by Administrative Law Judge (SSA
Form HA-501) was filed. We used the hearing request date contained in the Case Processing and
Management System, ODAR’s system for controlling and processing hearing cases.
5
    See Appendix D for more information on the various stages of a hearing.


ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                                  E-1
                         Figure E-1: Status of Request for Hearings Received on October 13, 2009
                                                   (as of May 7, 2010)

                                     Not Scheduled - Unworked                                                                  35%


                                      Not Scheduled - In-Process                                                       30.4%
  Hearing Process Step




                          Not Scheduled - Awaiting Rescheduling        0.7%


                                    Scheduled - Awaiting Hearing                          12%


                                                  Hearing Held                 5%


                                                Decision Issued                                 17%


                                                                   0          200        400      600      800     1000        1200
                                                                                    Number of Cases/Percent of Cases


                                                Note: May not add to 100 percent due to rounding.



REGIONAL TRENDS

We found the hearing case processing rates differed among ODAR’s 10 regions. For
example, the percent of cases waiting to be scheduled for a hearing ranged from a low
of 28 percent in the Dallas Region to a high of 84 percent in the Denver Region
(see Figure E-2).




ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                                                            E-2
Figure E-2: Percentage of Each Region’s Cases Waiting to be Scheduled
                              (as of May 7, 2010)

                 Boston
               New York
            Philadelphia
                 Atlanta
                Chicago
  Region




                  Dallas
             Kansas City
                 Denver
           San Francisco
                 Seattle
                   NHC

                           20%      30%        40%       50%        60%        70%        80%     90%
                                            Percent of Cases Waiting to be Scheduled

                             Note: Axis starts at 20 percent to better illustrate the variance.

We reviewed the status of cases in the Dallas and Denver Regions to understand the
difference between these processing rates (see Table E-1). We found the Dallas
Region had already held a hearing and/or decided approximately half of its cases. For
instance, 49 percent of the Dallas Region cases had undergone a hearing and/or been
decided, versus 8 percent in the Denver Region. Moreover, Dallas had another
23 percent of its cases scheduled for a hearing, compared to 7 percent in the Denver
Region.

                  Table E-1: Status of Cases at the Dallas and Denver Region
                                       (as of May 7, 2010)
                             Status                                     Dallas                Denver
           Not Scheduled – Unworked                                      1%                    58%
           Not Scheduled – In Process                                    26%                   25%
           Not Scheduled – Awaiting Re-Schedule                          1%                    1%
           Scheduled – Awaiting Hearing                                  23%                   7%
           Hearing Held                                                  20%                   1%
           Decision Issued                                               29%                   7%
           Note: May not add to 100 percent because of rounding.




ODAR’s Scheduling Procedures for Hearings (A-12-10-20169)                                               E-3
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
